                  U.S. ELECTION ASSISTANCE
                         COMMISSION
                 OFFICE OF INSPECTOR GENERAL




                            FINAL REPORT:

                 Final Audit Report - Administration of
                   Payments Received Under the Help
                America Vote Act by the Hawaii Office of
                               Elections



                  APRIL 23, 2003 THROUGH SEPTEMBER 30, 2009




Report No.
E-HP-HI-01-10
February 2011
                         U.S. ELECTION ASSISTANCE COMMISSION

                                 OFFICE OF INSPECTOR GENERAL

                                1201 New York Ave. NW - Suite 300

                                      Washington, DC 20005




                                                                                   February 4, 2011

Memorandum


To:	       Thomas Wilkey
           Executive Director

From:	     Curtis W. Crider
           Inspector General

Subject:	 Final Audit Report - Administration of Payments Received Under the Help America
          Vote Act by the Hawaii Office of Elections (Assignment Number E-HP-HI-01-10)

       We contracted with the independent certified public accounting firm of Clifton Gunderson
LLP (Clifton Gunderson) to audit the administration of payments received under the Help America
Vote Act (HAVA) by the Hawaii Office of Elections (HOE). The contract required that the audit be
done in accordance with U.S. generally accepted government auditing standards. Clifton
Gunderson is responsible for the attached auditor’s report and the conclusions expressed therein.

        In its audit of the HOE, Clifton Gunderson concluded that the HOE did not account for and
expend HAVA funds in accordance with the HAVA requirements and the financial management
requirements established by the U.S. Election Assistance Commission. The auditors noted that the
HOE did not maintain equipment inventory records that conformed to the Common Rule; used
HAVA funds to pay for expenses that are questionable as appropriate uses of the funds; did not
transfer interest earnings on HAVA funds to the election fund; included $1,339,192, plus interest, as
Section 102 funds in error; did not perform periodic reconciliations of HAVA funds to ensure that
financial reports were accurate; and did not prepare semi-annual certifications to support personnel
costs of $219,471.

        In its April 1, 2010 and October 4, 2010 responses to the findings and recommendations
(Appendices A-1 and A-2, respectively), the HOE generally agreed with the finding and
recommendations, and provided corrective action. However, they disagreed with the assessment
that certain advertising costs and computer purchases should not be allowable uses of HAVA funds.

        On October 28, 2010, you provided us with your written response to the recommendations
(Appendix A-3), which indicated general agreement. We would appreciate being kept informed of
the actions taken on our recommendations as we will track the status of their implementation.
Please respond in writing to the finding and recommendation included in this report by April 4,
2011. Your response should include information on actions taken or planned, targeted completion
dates, and titles of officials responsible for implementation.
        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125.
                     
                     
    PERFORMANCE AUDIT REPORT
	

ADMINISTRATION OF PAYMENTS RECEIVED
	
             UNDER THE
	
       HELP AMERICA VOTE ACT
	
               BY THE
	
          STATE OF HAWAII
	

April 23, 2003 Through September 30, 2009


           UNITED STATES
	
  ELECTION ASSISTANCE COMMISSION
	
                     
                     
                     
                     
                     
                     




                        a1 
                                                  TABLE OF CONTENTS




                                                                                                                              PAGE

EXECUTIVE SUMMARY ............................................................................................................ 1

BACKGROUND.......................................................................................................................... 2

AUDIT OBJECTIVES ................................................................................................................. 3

SCOPE AND METHODOLOGY ................................................................................................. 4

AUDIT RESULTS ....................................................................................................................... 4

APPENDICES

Appendix A-1: Director, Office of Elections Response To
	
              Audit Results .................................................................................................. 12

Appendix A-2: Director, Office of Elections Response to Draft Report ............................. 15

Appendix A-3: U. S. Election Assistance Commission Response to Draft Report………..17

Appendix B: Audit Methodology ............................................................................................ 18

Appendix C: Monetary Impact as of September 30, 2009..................................................... 19
                        U.S. Election Assistance Commission
	
        Performance Audit of the Administration of Payments Received Under the
	
                     Help America Vote Act by the State of Hawaii
	
EXECUTIVE SUMMARY
Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the Hawaii Office of
Elections (HOE) for the period April 23, 2003 through September 30, 2009 to determine whether
the State of Hawaii used payments authorized by Sections 101, 102, and 251 of the Help
America Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable
requirements; accurately and properly accounted for program income and property purchased
with HAVA payments; and met HAVA requirements for Section 251 funds for an election fund
and for a matching contribution. We did not include a determination of whether the HOE and its
subgrantees met the requirements for maintenance of a base level of state outlays because the
Commission is reviewing its guidance on the applicability of the maintenance of a base level of
state outlays to the HOE’s subgrantees.


In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

   •	 Comply with the Uniform Administrative Requirements for Grants and Cooperative
       Agreements with State and Local Governments (also known as the “Common Rule”) as
       published in the Code of Federal Regulations 41 CFR 105-71.

   •	 Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87.

   •	 Submit detailed annual financial reports on the use of Title I and Title II payments.
We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.
Our audit concluded that the HOE did not account for and expend HAVA funds in accordance
with the requirements mentioned above for the period from April 23, 2003 through September
30, 2009. We noted exceptions needing HOE management attention as follows:

   •	 Inventory listings of election office equipment did not conform to the requirements of 41
       C.F.R. 105-71.132 (d) (1), (the Common Rule). The fixed asset listing did not contain all
       of the required information such as: description of equipment, location of equipment,
       condition of equipment, acquisition date, nor the funding of the purchase of equipment
       (specifically, whether the equipment item was purchased with HAVA funds).




                                                1
	
   •	 The HOE used HAVA funds totaling $49,475.77 to pay for interest on delinquent
        invoices, advertising that was unrelated to voter education, and computers to be used in
        the daily operations of the elections office. These expenditures did not meet the HAVA
        guidelines or federal regulations as appropriate uses of the funds.
   •	   An undetermined amount of interest earnings on HAVA balances had not been
        transferred by the state to the election fund since February 2009.
   •	   As of September 30, 2009, the election fund included $1,339,192.30, plus interest, that
        was received as part of a special distribution by the EAC to selected states under the
        Consolidated Appropriation Resolutions Act, Public Law (PL) 108.7. This fund should not
        be co-mingled with the HAVA funds.
   •	   The HOE did not perform periodic reconciliations to agree the HAVA accounting records
        with the state’s official accounting records, resulting in errors in the annual financial
        status reports, Form SF269, filed with the EAC, and an unreconciled difference of
        $42,000 as of September 30, 2009.
   •	   The HOE lacked appropriate documentation or semi-annual certifications to support
        personnel costs charged to HAVA totaling $219,471.19.
We have included in this report as Appendix A-1 the HOE management’s formal response on
April 1, 2010 to the findings and recommendations, and as Appendix A-2 the HOE
management’s followup response to the draft audit report, dated October 4, 2010, which clarified
their position on the responses. Although we have included management’s written responses to
our findings and recommendations, such responses have not been subjected to the audit
procedures and, accordingly, we do not provide any form of assurance on the appropriateness of
the responses or the effectiveness of the corrective actions described therein.
The draft report, including the HOE responses, was provided to the Executive Director of the
EAC for review and comment. The EAC responded on October 28, 2010, and generally agreed
with the report’s findings and recommendations. The response indicated that the EAC would
work with the HOE to ensure corrective action, to resolve disagreements on allowability of
expenditures, and to determine appropriate resolution regarding the lack of personnel
certifications. The EAC’s complete response is included as Appendix A-3.
BACKGROUND
HAVA created the Commission to assist states and insular areas with the improvement of the
administration of federal elections and to provide funds to states to help implement these
improvements. HAVA authorizes payments to states under Titles I and II, as follows:
   •	 Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
      uniform and nondiscriminatory election technology and administration requirements,
      improving the administration of elections for federal office, educating voters, training
      election officials and poll workers, and developing a state plan for requirements
      payments.
   •	 Title I, Section 102 payments are available only for the replacement of punch card and
      lever action voting systems.
   •	 Title II, Section 251 requirements payments are for complying with Title III requirements
      for voting system equipment; and for addressing provisional voting, voting information,
      statewide voter registration lists, and voters who register by mail.




                                                2
	
        Title II also requires that states must:

    •	 Have appropriated funds “equal to 5 percent of the total amount to be spent for such
       activities [activities for which requirements payments are made].” [Section 253(b)(5)].

    •	 “Maintain the expenditures of the state for activities funded by the [requirements] payment
       at a level that is not less than the level of such expenditures maintained by the state for
       the fiscal year ending prior to November 2000.” [Section 254 (a)(7)].

    •	 Establish an election fund for amounts appropriated by the state “for carrying out the
       activities for which the requirements payment is made,” for the federal requirements
       payments received, for “such other amounts as may be appropriated under law,” and for
       “interest earned on deposits of the fund.” [Section 254 (b)(1)].

AUDIT OBJECTIVES

The objectives of our audit were to determine whether the HOE:

    1.		 Used payments authorized by Sections 101, 102, and 251 of HAVA in accordance with
         HAVA and applicable requirements;

    2.		 Accurately and properly accounted for property purchased with HAVA payments and for
         program income;

    3.		 Met HAVA requirements for Section 251 funds for an election fund and for a matching
         contribution. We did not determine whether the HOE met the requirement for
         maintenance of a base level of state outlays, because the Commission is reviewing its
         guidance on the applicability of the maintenance of a base level of state outlays to
         subgrantees of the HOE.

In addition, to accounting for HAVA payments, the Act requires states to maintain records that
are consistent with sound accounting principles that fully disclose the amount and disposition of
the payments, that identify the project costs financed with the payments and other sources, and
that will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:

    1.		 Comply with the Uniform Administrative Requirements for Grants and Cooperative
         Agreements with State and Local Governments (also known as the “Common Rule”) as
         published in the Code of Federal Regulations at 41 CFR 105-71.

    2.		 Expend payments in accordance with cost principles for establishing the allowance or
         disallowance of certain items of cost for federal participation issued by the OMB.
                                                                                                           1
    3. Submit detailed annual financial reports on the use of Title I and Title II payments.


1  EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251 funds.
Through December 31, 2008, for Sections 101 and 102, reports were due on February 28 for the activities of the
previous calendar year, and, for Section 251, reports were due by March 30 for the activities of the previous fiscal
year ending on September 30. Beginning in calendar year 2009, all reports will be effective as of September 30,
20XX for the fiscal year ended that date and will be due by December 31, 20XX.

                                                         3
	
  SCOPE AND METHODOLOGY

  We audited the HAVA funds received and disbursed by the HOE from April 23, 2003, through
  September 30, 2009, (77-month period) as shown in the following table:
                                   FUNDS RECEIVED
   TYPE OF           EAC         PROGRAM       STATE         INTEREST         TOTAL           FUNDS          DATA
	
   PAYMENT         PAYMENT        INCOME       MATCH          EARNED        AVAILABLE       DISBURSED        AS OF
	


  Section 101      $ 5,000,000      $      0   $        0    $ 1,149,790     $ 6,149,790     $ 1,533,295    9/30/2009
  Section 102		              0             0            0               0               0               0   9/30/2009
  Section 251       11,596,803             0            0        899,348      12,496,151       9,797,769    9/30/2009


Total HAVA Funds   $16,596,803      $      0        $0        $2,049,138     $18,645,941     $11,331,064    9/30/2009

  Notes: 1)		 The balances above do not include $1,339,192.30 that was received under P.L.
              108-7 prior to HAVA and deposited in the election fund as described in Finding IV
	
              below. The interest earnings shown as posted to Section 101 funds includes interest
	
              that was earned on the PL 108-7 funds; however, the amount of those earnings has
	
              not been determined and the election fund balance is overstated.               Our
	
              recommendation under Finding IV is to compute the interest earnings applicable to
	
              these funds and to transfer them to the general fund.
	

           2)		 Hawaii did not deposit its state matching funds totaling $610,358 into the election
                fund. Instead, it considered in-kind expenditures prior to receipt of requirements
                payments as satisfying its state match.

  Our audit methodology is set forth in Appendix B.

  AUDIT RESULTS

  We conducted this performance audit in accordance with Generally Accepted Government
	
  Auditing Standards. Those standards require that we plan and perform the audit to obtain
	
  sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
	
  based on our audit objectives. We believe that the evidence obtained provides a reasonable
	
  basis for our findings and conclusions based on the audit objectives. Because of inherent
	
  limitations, a study and evaluation made for the limited purposes of our review would not
	
  necessarily disclose all weaknesses in administering HAVA payments.
	

  We concluded that the HOE did not account for and expend HAVA funds in accordance with the
	
  requirements mentioned above. Exceptions identified include the state’s failure to properly
	
  account for equipment purchased with federal funds, to utilize HAVA funds only for allowable
	
  purposes, to deposit interest earnings timely; reconcile the HOE’s election fund balance to the
	
  Hawaii State Treasurer’s Office (STO) account balances, and to maintain semi-annual
	
  personnel certifications. Also, the HOE co-mingled HAVA funds with other federal distributions
	
  intended for reimbursement of state expended funds. The HOE generally agreed with the
	
  findings and recommendations and has taken action on or is working to resolve the exceptions
	
  described below as set forth in Appendix A. However, the HOE disagreed with the finding
	
  regarding the improper use of HAVA funds for advertising costs and equipment purchases, and
	
  detailed their objection in Appendix A-1. In its formal response to the draft report, Appendix A-2,
	
  the HOE expanded on its position regarding the findings relating to the questioned costs listed
	
  in Appendix C:
	


                                                       4
	
I.		 Property Management

Since the state of Hawaii leases its voting equipment when needed for elections, the inventory
listing provided by the Hawaii Office of Elections included only equipment that was housed at
the elections office. In addition, the listing was not maintained in accordance with the Common
Rule as follows:

   •	 The fixed asset listing did not contain all of the required information such as: description
      of equipment, location of equipment, condition of equipment, acquisition date, nor the
      funding source of the purchase of equipment (specifically, whether the equipment item
      was purchased with HAVA funds).

In addition, computer equipment purchased with HAVA funds, such as monitors and laptops to
be used for Hawaii Computerized Voter Registration (HCVR) and other HAVA activities, were
used primarily for operations.

The risks of loss, theft or misappropriation is increased if properties are not properly accounted
for in the accounting records or are not properly tagged as property of the HOE.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments 41 CFR § 105-71.132 Equipment states that property records must be
maintained that include a description of the property, serial number or other identification
number, the source of property, who holds the title, the acquisition date, and costs of the
property, percentage of federal participation in the cost of the property, the locations, use and
condition of the property, and any ultimate disposition data including the data of disposal and
sale price of the property.

The recipient shall use the equipment in the project or program for which it was acquired as long
as needed, whether or not the project or program continues to be supported by federal funds
and shall not encumber the property without approval of the federal awarding agency.

Current election office management and staff stated that they were not familiar with the
regulations governing equipment acquired with federal funds.

Recommendations:

We recommend the HOE:

1.		Update its equipment inventory records to include all information required by federal
    guidelines and identify the equipment purchased with HAVA funds.

2.		Perform periodic inventories of equipment to facilitate proper accountability and
    safeguarding of assets for which federal funds were used to acquire.

HOE’s Response:

The HOE agreed with the corrective action recommended.




                                                5
	
II.		 Procurements:

During our test of other direct costs, we identified costs that are ineligible or unallowable under
the HAVA Act and other federal guidelines as follows:

    � Interest totaling $2,971.61 was paid on seven invoices that were delinquent in payment
       (over 90 days). Interest incurred on late payment of invoices, wherein an interest
       penalty is paid, is not an allowable use of federal funds.
    � Advertising costs to “get out and vote” were incurred totaling $3,591.62. Although
       advertising costs are allowable, advertising to “get out the vote” are specifically not
       allowable under the HAVA program.
    � Computers were purchased totaling $42,912.54 using HAVA funds. However, the
       computers are used in the daily operations of the elections offices, and are not
       restricted solely for HAVA related activities. A determination could be not made as to
       what portion of these costs is an appropriate use of HAVA funds.

OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments, Attachment
B, Item 16, Fines and Penalties, states that:

   � Fines, penalties, damages, and other settlements resulting from violations (or alleged
     violations) of, or failure of the governmental unit to comply with, federal, state, local, or
     Indian tribal laws and regulations are unallowable except when incurred as a result of
     compliance with specific provisions of the federal award or written instructions by the
     awarding agency authorizing in advance such payments.

EAC Funding Advisory Opinion FAO-08-005 states that:

   � Neither Section 101 nor 251 funds may be used to conduct voter registration drives or get
     out the vote efforts; including advertising for the event, setting up booths, and paying
     salaries of employees who register new voters.

   � HAVA authorizes the use of Section 101 funds to educate voters about registering to vote.
     However, as noted in above, neither Section 101 nor 251 funds can be used for “get out
     the vote” activities. In those cases where it is not clear whether a registration activity is
     educational or a get out the vote effort (i.e. encouraging citizens to vote on Election Day),
     the state should contact EAC for a determination on the basis of the specific
     circumstances.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments 41 CFR § 105-71.132(c) Use (1) t states that:

   the recipient shall use the equipment in the project or program for which it was acquired as
   long as needed, whether or not the project or program continues to be supported by federal
   funds and shall not encumber the property without approval of the federal awarding agency.


The HOE management stated that the office had experienced significant turnover in key
positions, which possibly contributed to the limited knowledge of current staff regarding federal
regulations and the HAVA Act requirements.




                                                6
	
There is a potential loss of HAVA funds totaling $49,375.77 as discussed in detail in the
condition above.

In addition, there is a potential for additional questioned costs for the amounts that were not
included in our test sample but were part of the total costs paid for the same activities
questioned in the condition above:

       � $10,784.17 of computer equipment costs.
       � $29,809.29 for radio advertising costs for “get out and vote”.

Recommendations:

We recommend that:

3.		The HOE discontinue the use of HAVA funds to pay interest charged on delinquent invoices,
    and ensure that the state reimburses the election fund for any late payment interest paid to
    date.

4.		The EAC work with the HOE to determine the allowability of the advertising costs and the
    equipment costs.

HOE Response:

The HOE agreed with the corrective action recommendation to discontinue the use of HAVA
funds to pay interest charged on delinquent invoices.

The HOE also agreed with the corrective action recommendation to work with the EAC to
determine the allowability of the advertising costs and the equipment costs. However, they
disagreed with the assessment that the advertising costs were not educational, and believe that
the computer costs incurred in operating the HOE were expended for “improving the
administration of elections for federal office.” Full details on the HOE position are shown in
Appendices A-1 and A-2.

III. Interest Earned

The State of Hawaii, Department of Budget and Finance, Financial Administration Division –
Treasury, determines the interest earned on HAVA funds using a pooling of funds approach and
allocating the interest monthly based on average balances. The allocation is an electronic
distribution as determined by the state’s accounting system. However, the allocation of the
interest earned is not recorded timely and the HAVA election fund had not received all of the
interest earnings to which it was entitled as of September 30, 2009. Interest earned for March
2009 through September 30, 2009 had not been recorded or credited to the HAVA funds. The
last interest income posted was for February 2009 earnings, which was recorded in September
2009. The amount of unrecorded interest earned has not yet been determined.

Sec. 254(b) (1) D of the HAVA requires that the interest earned on deposits of the fund be
deposited into the HAVA election fund.




                                                 7
	
The Funds Custody Manager in the treasury office informed us that there was a staffing
shortage in her office resulting from budget cuts that caused the delays in transferring the
interest earned.

The HAVA election fund is understated by an undetermined amount of interest earned as of
September 30, 2009 and going forward as long as the recording delays continue.

Recommendations:

We recommend that the HOE:

5.		Determine the amount of delinquent interest due the election fund and transfer it to the fund.

6.		Implement procedures to follow up with the treasurer’s office periodically to ensure timely
    recording of interest earned.

HOE Response:

The HOE agreed with the corrective action recommended.

IV. Reimbursement of Funds (Pre-HAVA Distribution)

Prior to the enactment of the Help America Vote Act (HAVA) of 2002, the State of Hawaii used
its own funds to obtain electronic voting equipment for the regularly scheduled general election
for federal office held in November 2000. Subsequent to the passing of the HAVA, the
Consolidated Appropriation Resolutions Act, Public Law (PL) 108-7, signed on February 20,
2003, authorizes a one-time payment to those states that had upgraded or replaced their voting
systems prior to the November 2000 election. The State of Hawaii received $1,339,192.30 as a
reimbursement for qualifying equipment purchased for the 2000 election in accordance with PL
108-7.

On April 23, 2003, the previous Chief Elections Officer (CEO) filed the required state
certification statement for reimbursement stipulating that the state had spent $2,500,000 for
qualifying equipment and accessories, and that the state would not be eligible to receive Sec.
102 funds, which were appropriated as part of the HAVA provisions. However, in a letter to the
Governor excerpted below, dated May 16, 2003, describing HAVA funding received to date, the
previous CEO incorrectly described this special payment as Sec. 102 funds.

   “On May 3, 2003, the State of Hawaii received an additional $1,339,192.30 pursuant to
   Section 102 of the Act. This money will be used as a reimbursement for monies spent for
   the replacement of punch card voting machines.”

The $1.3 million was deposited in the HAVA election fund, and is still included with the HAVA
fund balances as of September 30, 2009. In addition, interest has accrued on the funds since
May 2003 through February 2009, and is included in the election fund. This has resulted in the
HAVA fund balance being overstated by the $1,339,192.30, plus compounded interest.

Excerpt from H.J. Res. 2 (P.L. 108-7) Consolidated Appropriations Resolution, 2003 (Enrolled
as Agreed to or Passed by Both House and Senate) states that:




                                                8
	
ELECTION REFORM REIMBURSEMENTS
For necessary expenses to carry out a program under which a one-time payment shall be made
to the chief election authority of each state which, on a statewide basis, obtained optical scan or
electronic voting equipment for the administration of elections for federal office in the state prior to
the regularly scheduled general election for federal office in November 2000, $15,000,000:
Provided, That the amount of the payment made with respect to a state under such program shall
be equal to the costs incurred by the state in obtaining optical scan or electronic voting equipment
used to administer the most recent regularly scheduled general election for federal office in the
state, except that in no case may the amount of the payment exceed $4,000 per voting precinct in
the state at the time of the election: Provided further, That total payments made under such
program shall not exceed $15,000,000.

Excerpts from House Report 107-575 - Treasury, Postal Service, And General Government
Appropriations Bill, 2003 state that:

H.R. 3295, the Help America Vote Act of 2001, authorizes appropriations for states to upgrade
and replace voting systems with optical scan or electronic voting equipment on a statewide
basis. H.R. 3295 does not, however, take into account those states that had upgraded or
replaced their voting systems prior to the November 2000 election. The Committee has included
new language to rectify this disparity by providing authorization and appropriations for one-time
payments to those states that obtained optical scan or electronic voting equipment prior to the
regularly scheduled general election for federal office held in November 2000. It is the
Committee's understanding that this provision affects five states with a total estimated cost of
approximately $23,000,000.

The current Office of Elections’ management and staff did not know why the funds were not
deposited in the state’s general fund, since they were not on staff at the time.

Recommendation:

7.		We recommend the HOE officials determine whether these funds should remain in the
    HAVA election funds or transferred to the state’s general fund.


HOE Response:

The HOE stated that they agreed with the corrective action recommended, and have transferred
the original reimbursement money to the general funds. Interest which had accrued on the
original funds is still in the process of being determined. After it is calculated, they will consult
with the Department of Budget and Finance (DBF) if the funds should likewise be transferred to
the general fund. To the extent the DBF permits the interest money to remain in the HAVA
account, the HOE would like guidance on whether funds in addition to the requirements
payments may be deposited in the HAVA account, to the extent that the State of Hawaii agrees
to use those funds for HAVA purposes (i.e. matching funds or other commitments of funds by
the state for HAVA purposes).




                                                   9
	
V. Financial Accounting and Reporting

The Office of Elections does not reconcile the HAVA funds in its books against the State
Treasurer’s records. We noted differences between the Office of Election’s records as reported
on the Financial Status Reports and Hawaii’s accounting system, Financial Accounting &
Management Information System (FAMIS). As of September 30, 2009 the Office of Election’s
computed HAVA fund balance was $8,661,280.33 and Hawaii’s Financial Accounting and
Management Information System (FAMIS) account balances totaled $8,619,280.33, resulting in
an unreconciled difference of $42,000. Consequently, amounts reported on financial reports
may not be accurate and errors could occur and not be detected in a timely manner.

HAVA receipts and expenditures were co-mingled in the Office of Elections accounting system
until April 2007, and were not individually coded as Section 101 or Section 251 funds. In
preparing the Financial Status Report, SF 269, it was necessary for the staff to evaluate the
entries in the accounting records for allocation to the appropriate fund, utilizing Excel
worksheets to accumulate HAVA data for tracking purposes.

HAVA Section 902. Audits and Repayment of Funds, Part (a) – Recordkeeping Requirement.
states that each recipient of a grant or other payment made under this Act shall keep such
records with respect to the payment as are consistent with sound accounting principles,
including records which fully disclose the amount and disposition by such recipient of funds, the
total cost of the project or undertaking for which such funds are used, and the amount of that
portion of the cost of the project or undertaking supplied by other sources, and such other
records as will facilitate an effective audit.

We were informed that the HOE has experienced significant turnover, specifically in its
accounting staff, therefore, reconciliations have not been performed as necessary.

Recommendations:

We recommend the HOE:

8.		Perform monthly reconciliations of HAVA funds and accounts to ensure that all receipts and
    disbursements are properly recorded and accounted for in the state’s accounting records.

9.		Resolve the unreconciled difference of $42,000.

10. Coordinate with EAC if corrected SF 269s need to be filed retroactively or prospectively.

HOE Response:

The HOE agreed with the corrective action recommended.


VI. Personnel Documentation and Certifications

The HOE did not complete semi-annual certifications for employees that worked full-time or
solely on HAVA activities.

We identified only one employee position that was chargeable to the HAVA program. The
position description of the employee indicates that the duties are for HAVA-related activities.


                                               10
	
However, there were no timesheets or other documentation to support the number of hours
worked, overtime hours, leave taken, and holidays for total HAVA personnel charges of
$219,471,19. Accordingly, there was no assurance that salaries and fringe benefit costs paid to
HOE staff was incurred for work done solely on HAVA activities during the audit period.

OMB Circular A-87, in Attachment B Section 8(h) (3) requires that:

   (3) Where employees are expected to work solely on a single federal award or cost
   objective, charges for their salaries and wages will be supported by periodic certifications
   that the employees worked solely on that program for the period covered by the certification.
   These certifications will be prepared at least semi-annually and will be signed by the
   employee or supervisory official having first hand knowledge of the work performed by the
   employee.

The staff of the HOE stated that they were not aware of this requirement.

Recommendation:

11. We recommend that the EAC consult with the HOE to determine the appropriate corrective
    action regarding the lack of periodic certifications.

HOE Response:

The HOE agreed with the corrective action recommended, and noted that the NFR stated that
the position description for the employee indicates that the duties are HAVA-related activities.
Specifically, the employee position was created to implement a Section 261 grant to assure
access for individuals with disabilities. As such, the employee has always worked solely on
HAVA activities. Going forward, the State of Hawaii will submit the required semi-annual
certifications.


                               ****************************************

We provided a draft of our report to the appropriate individuals of the HOE and the Commission.
We considered any comments received prior to finalizing this report.

The draft report, including the HOE responses, was provided to the Executive Director of the
EAC for review and comment. The EAC responded on October 28, 2010, and generally agreed
with the report’s findings and recommendations. The response indicated that the EAC would
work with the HOE to ensure corrective action, to resolve disagreements on allowability of
expenditures, and to determine appropriate resolution regarding the lack of personnel
certifications. The EAC’s complete response is included as Appendix A-3.

CG performed its work between October 5, 2009 and October 23, 2009.

a1 
Calverton, Maryland
May 31, 2010




                                                 11
	
                                                                                    Appendix A-1





                                            STATE OF HAWAII
                                        OFFICE OF ELECTIONS
    SCOTT T. NAGO
                                               802 LEHUA AVENUE
CHIEF ELECTION OFFICER                      PEARL CITY, HAWAII 96782
                                             www.hawaii.gov/eleclions




                                              April 1, 2010


    Curtis Crider, Inspector General
    U.S. Election Assistance Commission
    Office of Inspector General
    1225 New York Ave., NW, Suite 1100
    Washington, D.C. 20005

                         Re:   NOTICE OF FINDINGS AND RECOMMENDATIONS

    Dear Mr. Crider:

          I am writing in response to the six Notices of Findings and Recommendation
    (NFR) that you sent to us by email on March 22, 2010.

    1.        NFR # 1 Fixed Asset Listing

              We agree with the corrective action recommended.

    2.        NFR # 2 Procurement-Disbursements

          We agree with the corrective action recommendation to discontinue the use of
    Help America Vote Act (HAVA) funds to pay interest charged on delinquent invoices.

           We likewise agree with the corrective action recommendation to work with the
    Election Assistance Commission (EAC) to determine the allowability of the advertising
    costs and the equipment costs.

           In regards to the advertising material, it is our position that it was educational as
    opposed to a "get out the vote" effort. 42 USC § 15301(b)(1)(C). Additionally, it is not
    clear whether the specific advertising at issue was actually paid for with HAVA funds, as
    opposed to being treated as free public service announcements by the vendors (i.e.
    some ads were paid for and others were provided for free by the vendors as public
    service announcements).




                                                    12
Mr. Curtis Crider
April 1,2010
Page 2


       As for the computers, it is our position that the computers are an allowable HAVA
expense used for "improving the administration of elections for Federal office." 42 USC
§ 15301(b)(1)(8). The very nature of the Office of Elections is the administration of
federal elections. Specifically, all primary and general elections are'regularly scheduled
county/state/federal combined elections. To the extent there is ever a special election
for a county office; the election is separately conducted by the county. Any vacancy in a
state office is handled either through appointment by the Governor or a special election
held in conjunction with a regularly scheduled election (i.e. county/state/federal
combined election).

        The Office of Elections has no other responsibilities which are separate and
distinct from our duty to administer elections, which as noted above involve Federal
offices. The unique statutory structure of elections in Hawaii mandates the central
administration of federal elections by the Office of Elections, as opposed to on the
county level, which occurs in other states. As it relates to "improving the administration
of elections," the new computers provide (at that time) current hardware and software
compatibility and features to run the offices newly developed election management
program, Phoenix. The election management programs - the computer is used on -
manages and tracks a wide array of logistical and personnel resources necessary to
conduct this state's elections.

       To the extent our interpretation of what constitutes "improving the administration
of elections for Federal office" is incorrect, further guidance from the EAC should be
provided on this matter.

        Finally, to the extent the recommendations noted above involve possible
reimbursement, we would like to discuss whether this can be waived or if the State
would be allowed to off-set this through the expenditure of state funds for HAVA
purposes above and beyond our maintenance of effort (MOE) requirements. A review
of our finances indicates that for several years the State of Hawaii has been utilizing
state funds for HAVA expenses in excess of its MOE requirements. In other words, if
we were to reimburse the HAVA account, it would simply result in the State of Hawaii
spending an equivalent amount less of its general funds on HAVA expenses.
Additionally, there is the issue of whether the State of Hawaii should receive some type
of credit or off-set for these past expenditures in excess of MOE.

3.     NFR #3

       As per your email, there is no NFR #3 as it was incorporated into NFR #6.

4.     NFR # 4 Interest Earned

       We agree with the corrective action recommended.




                                           13

Mr. Curtis Crider
April 1,2010
Page 3



5.      NFR # 5 Pre-HAVA funds not reimbursed to State General Fund

       We agree with the corrective action recommended. We have transferred the
original reimbursement money to the state general fund . Interest which has accrued on
the original funds is still in the process of being determined. After it is calculated we will
consult with the Department of Budget and Finance if the funds should likewise be
transferred to the general fund. To the extent the Department of Budget and Finance
permits the interest money to remain in the HAVA account, we would like guidance on
whether funds in addition to the federal requirements payments may be deposited into
the HAVA account, to the extent the State agrees to use those funds for HAVA
purposes (i.e. matching funds or other commitments of funds by the State for HAVA
purposes).

6.      NFR # 6 Financial Accounting and Reporting

        We agree with the corrective action recommended.

7.      NFR # 7 Personnel Costs

        We agree with the corrective action recommended. As noted by the NFR the
position description of the employee indicates that the duties are for HAVA -related
activities. Specifically, the employee position was created to implement a HAVA
Section 261 grant to assure access for individuals with disabilities. As such, the
employee has always worked solely on HAVA activities. Going forward, the State of
Hawaii will submit the required semi-annual certifications.

       If you have any questions or require any additional information, please feel free
to contact us at (808) 453-8683 or by email at elections@hawaii.gov.

                                                   Sincerely,


                                                  ~SCOTT T. NAGO
                                                   Chief Election Officer
STN:AHS:cr
OE-093-10




                                          14

                                                                                   Appendix A-2




                                        STATE OF HAWAII 

                                   OFFICE OF ELECTIONS 

                                           802 LEHUA AVENUE
    SCOTT T. NAGO
CHIEF ELECTION OFFICER                  PEARL CITY. HAWAII 96782
                                          www.hawaii.gov/eleclions



                                        October 4, 2010


     VIA E-MAIL (CCRIDER@EAC.GOV) 

     Curtis Crider, Inspector General 

     U.S. Election Assistance Commission 

     Office of Inspector General 

     1225 New York Ave., NW, Suite 1100 

     Washington, D.C. 20005 


     Re:       Draft Performance Audit Report

     Dear Mr. Crider:

               Thank you for the opportunity to comment on your draft performance audit
     report.

             We continue to stand by our comments made in our April 1, 2010
     response to the six Notices of Findings and Recommendation (NFR) tnat you
     sent us on March 22, 2010, which you have included as AppendixA to your draft
     report:

           Having said that, to the extent you plan to recommend possible
     reimbursement of HAVA funds, we would ask you to consider the totality of the
     circumstances in making_ such a decision.

             First, we would note that this is the first audit of the Office of Elections
     regarding its use of HAVA funds and in fact the Office of Elections has never
     previously received federal funds or participated in a corresponding audit. As
     such, we would ask for the EAC's understanding as any errors were not
     intentional.

            Second, fundamental interpretations of provisions of HAVA were not firmly
     in place at the time of the audit. For example, the interpretation of the
     maintenance of effort provision as noted in the report was not resolved at the
     time of the audit.




                                                15
Mr. Curtis Crider
October 4, 2010
Page 2

       Third, the allegations regarding ineligible expenses for voting materials
and computers require an interpretation of the law and facts surrounding those
expenses. In recognition of this, the EAC issues advisory opinions on various
fact patters. We believe our materials were in line with those advisory opinions.
To the extent the EAC were to entertain deeming these expenses ineligible, we
would contend that due process would require the EAC to review the actual
voting materials, and to direct any questions regarding those materials to the
Office of Elections to respond to.

        In terms of the computers, we have stated our position, see Appendix A to
the Draft Report, that said computers were used to improve the administration of
elections for federal office, as allowed for under HAVA. The auditors point to no
specific evidence to contradict the position of the Office of Elections. Yet again,
we are more than happy to respond to direct questions from the EAC on this
matter.

        Fourth, we would note that if the EAC is concemed that these alleged
ineligible expenses, result in less than the appropriate amount of money being
spent toward compliance with HAVA, the opposite is true in that we have
historically spent significantly in excess of that amount, even taking into account
these alleged ineligible expenses.

      In the end, we appreciate the purpose of the audit and our mutual goal to
ensure that federal grant monies are spent appropriately and consistent with the
law.

        If you have any questions or require any additional information, please feel
free to contact us at (808) 453-VOTE(8683) or by email at elections@hawaiLgov.

                                                 Sincerely,


                                               C6~-
                                                 SCOTT T. NAGO
                                                 Chief Election Officer



STN:AS:ci
OE·245·10




                                      16
                                                                         Appendix A-3



                     EAC RESPONSE TO THE DRAFT AUDIT:
                     OIG Performance Audit Report on the Administration of
                     Payments Received Under the Help America Vote Act by the
                     State of Hawaii, for the Period April 23, 2003 Through
                     September 30, 2009.

October 28, 2010
	

MEMORANDUM
	

To:          Curtis Crider
             Inspector General

From:        Thomas Wilkey
             Executive Director

Subject:     Draft Performance Audit Report – “Administration of Payments
             Received Under the Help America Vote Act by the State of Hawaii”.

Thank you for this opportunity to review and respond to the draft audit report for
Hawaii.

The Election Assistance Commission (EAC) generally concurs with the results of
the review and recommendations. The EAC will work with the Hawaii Office of
Elections (HOE) to ensure appropriate corrective action. Where the state
disagrees with the recommendations, the EAC will work with the HOE to
determine the allowability of incurred advertising and equipment costs.
Additionally, the EAC will consult with the HOE to determine the appropriate
corrective action regarding the lack of periodic personnel certifications.




                                         17
                                                                                       Appendix B
                                    AUDIT METHODOLOGY


Our audit methodology included:

•	 Assessing audit risk and significance within the context of the audit objectives.

•	 Obtaining an understanding of internal control that is significant to the administration of the
   HAVA funds.

•	 Understanding relevant information systems controls as applicable.

•	 Identifying sources of evidence and the amount and type of evidence required.

•	 Determining whether other auditors have conducted, or are conducting, audits of the
   program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•	 Interviewed appropriate HOE employees about the organization and operations of the HAVA
   program.

•	 Reviewed prior single audit report and other reviews related to the state’s financial
   management systems and the HAVA program for the last 2 years.

•	 Reviewed policies, procedures and regulations for the HOE’s management and accounting
   systems as they relate to the administration of HAVA programs.

•	 Analyzed the inventory lists of equipment purchased with HAVA funds.

•	 Tested major purchases and supporting documentation.

•	 Tested randomly sampled payments made with the HAVA funds.

•	 Verified support for reimbursements to local governments (counties, cities, and
   municipalities).

•	 Reviewed certain state laws that impacted the election fund.

•	 Examined appropriations and expenditure reports for state funds used to meet the five
   percent matching requirement for section 251 requirements payments.

•	 Evaluated compliance with the requirements for accumulating financial information reported
   to the Commission on the Financial Status Reports, Form SF-269, accounting for property,
   purchasing HAVA related goods and services, and accounting for salaries.

•	 Verified the establishment and maintenance of an election fund.




                                                18
	
 


                                                                                     Appendix C
	
                                                                                                     


               MONETARY IMPACT AS OF SEPTEMBER 30, 2009



                                                  Questioned           Additional Funds for
                 Description                        Costs                    Program
    Interest payments on delinquent
    invoices                                              $2,972                           $0

    Advertising costs not considered to be
    educational                                           $3,592                           $0

    Computer equipment used for non-
    HAVA purposes                                       $42,912                            $0

    Election fund balance in excess of state
    accounting balance                                  $42,000                            $0

    Lack of semi-annual HAVA employment
    certifications                                     $219,471                            $0

    Totals                                             $310,947                            $0
 

Note: 1)		 There is an undetermined amount of interest due the election fund for the months
           from March to September 2009.

       2)		 As of September 30, 2009, the HAVA election fund included $1,339,192.30 that was
            distributed to the state under P.L. 108-7, plus accumulated interest, that was due to
            the state’s general fund.




                                               19
	
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
